No.20· _ _
IN THE
UNITED STATES SUPREME COURT

DOMENICO ANASTASIO,

Petitioner,

·v·
UNITED STATES OF AMERICA,

Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis by the
United States District Court for the Western District of New York.
Undersigned counsel was appointed to represent petitioner pursuant to the
Criminal Justice Act of 1964, 18 U.S.C.A. §3006A by the Second Circuit Court of
Appeals on October 16, 2018. A copy of the Order of Appointment is attached as
Exhibit A.
Dated: Garden City, New York
November 16, 2020

J . Tomao, Esq.

Co nsel for Petitioner-Defendant
Domenico Anastasio

Exhibit A

Case 15-1453, Document 287-2, 10/16/2018, 2410968, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City ofNew York, on the
161h day of October, two thousand and eighteen.
Before: Debra Ann Livingston,
Circuit Judge.

United States of America,

ORDER
Appellee USA
Docket No. 15-1453(L), 18-328(con), 18369(con), 18-421 (con)

v.
Cody Busch, et al. ,
Defendants,
Jonathan Delgado, AKA Jmag, Matthew
Smith, AKA Matt Nasty, Ismael Lopez, AKA
Ish, Domenico Anastasio, AKA Domo,
Defendant - Appellants.

Matthew R. Lembke moves to be relieved as counsel for the Appellant.
IT IS HEREBY ORDERED that the motion to be relieved is GRANTED. Peter J.
Tomao, Law Office of Peter J. Tomao, 600 Old Country Road, Suite 328, Garden City, NY
11530 is assigned as new counsel pursuant to the Criminal Justice Act, 18 U.S.C. §3006A.
Attorney Tomao is directed to review Local Rule 12.2 regarding the filing of Form Band Local
Rule 31.2 regarding procedures for setting the filing dates for the submission of briefs.

For the Court:
Catherine O' Hagan Wolfe,
Clerk of Court

XHIBIT A

